No.

CERTIFICATE OF COMPLIANCE

In re SCOTT LOUIS YOUNGBEAR, Petitioner

As required by Supreme Court Rule 33.1(h), I certify that the petition
for a writ of habeas corpus contains 8,891 words, excluding the parts of
the petition that are exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.
Executed on Julv% i.. 2020

No.

CERTIFICATE OF COMPLIANCE

In re SCOTT LOUIS YOUNGBEAR, Petitioner

As required by Supreme Court Rule 33.1(h), I certify that the petition
for writ of habeas corpus in the above entitled case complies with the
typeface requirement of Supreme Court Rule 33.1(b), being prepared in
New Century Schoolbook 12 point for the text ana 10 point for the
footnotes.
I declare under penalty of peijury that the foregoing is true and correct.
Executed on July % 4.2020

7

v>
iV

